CERTIFICATE OF COMPLIANCE
No.
Peter R. Culpepper, Petitioner,
y.

PROVECTUS Biopharmaceuticals, INC., Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the petition for
a writ of certiorari contains f5/73-l words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 3, 2020

Peter R. Culpepper, Petitioner

Received
NOV I 2 2020

